   Office of Inspector General
        Audit Report


WEAK PROCESSES HAVE LED TO A BACKLOG OF
     FLIGHT STANDARDS CERTIFICATION
              APPLICATIONS
         Federal Aviation Administration

          Report Number: AV-2014-056
           Date Issued: June 12, 2014
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Weak Processes Have Led to a                        Date:    June 12, 2014
           Backlog of Flight Standards Certification
           Applications
           Federal Aviation Administration
           Report No. AV-2014-056

  From:    Matthew E. Hampton                                       Reply to
                                                                    Attn. of:   JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Federal Aviation Administrator

           Each year, hundreds of commercial air carriers, aircraft repair stations, pilot
           schools, and other entities apply to the Federal Aviation Administration (FAA) for
           certificates authorizing them to operate in the National Airspace System (NAS).
           FAA’s Flight Standards District Offices (FSDO) are responsible for reviewing and
           approving these new applications, in addition to their primary duty of maintaining
           the safety of existing operators and entities. FAA’s certification process is one of
           many important layers of controls to ensure the safety, reliability, and efficiency of
           the NAS. However, lengthy delays in certification approvals can present barriers
           to companies seeking to operate in the NAS, potentially limiting the economic
           growth of the aviation industry.

           In a May 2013 letter to our office, Congressman Cory Gardner expressed concerns
           that the Denver FSDO had been negligent in processing new certification
           applications for both commercial and agricultural aviation operations. According
           to Congressman Gardner, one of his constituents based in eastern Colorado had
           been waiting 2 years for FAA approval of a Part 137 certificate to allow the
           company to operate aircraft for agricultural use. Based on the concerns raised by
           Congressman Gardner, we conducted a review of certifications at the Denver
           FSDO and examined whether similar issues existed at other FAA district offices
           and regions. Our audit objectives were to (1) review the status of aviation
           certification applications at the Denver FSDO and nationwide and (2) identify the
           causes for certification delays at the Denver FSDO and determine their potential
           impact nationally.
                                                                                                                  2


We conducted this review in accordance with generally accepted Government
auditing standards. Exhibit A details the scope and methodology we used to
conduct this audit.

RESULTS IN BRIEF
The Denver FSDO and other FAA field offices face a significant backlog of
aviation certification applications. Currently, there are 42 applicants on the waiting
list for certification at the Denver FSDO—one of the longest waitlists in the
country. 1 We determined that this office has not certified a new air operator since
August 2010, 2 raising concerns regarding whether the Denver FSDO, and the FAA
Northwest Mountain Region to which it reports, are doing enough to alleviate a
growing number of waitlisted applicants. Additionally, FAA has an extensive
certification backlog across all its regions. As of October 2013, there were more
than 1,000 entities awaiting certification across the United States, with 138
applicants delayed for more than 3 years.

A number of weaknesses in FAA’s certification process and management have
contributed to delays at the Denver FSDO, some of which also impact FAA’s
certification efforts nationwide. First, the Denver FSDO has faced challenges in
determining how many inspectors it needs to perform certification work, but has
not requested assistance from its regional office. Second, FAA lacks a
standardized approach to prioritize and track new certificate applications for air
operators and repair stations. Instead, the Agency uses a first come-first served
approach to performing certifications. As a result, many applicants may be
significantly delayed if more complex certifications are ahead of them in the
queue. In addition, FAA’s current guidance does not include a process that
managers should use to re-evaluate resources and initiate the certification of
waitlisted applicants. Finally, competing priorities and frequently changing
guidance from FAA headquarters and regional offices regarding the Agency’s
certification policy has resulted in workflow interruptions and diminished
incentives for inspectors to expedite new certification applicants. For example, the
Denver FSDO was instructed to halt all new certifications twice during a 1-year
period beginning in July 2012. According to FAA representatives at both the
regional and district office levels, these cessations in certifications were due in
large part to ongoing budget issues, as well as the need to maintain safety
oversight of existing operators. As a result, new aircraft operators and repair
stations may face continued delays entering the industry.

We are making four recommendations to improve the efficiency of FAA’s
certification process at the Denver FSDO and nationwide.

1
    There are 85 FAA field offices with applicants awaiting certification.
2
    At least one applicant was transferred to the Denver FSDO and certificated outside of the standard process.
                                                                                                                         3


BACKGROUND
FAA’s Flight Standards Service promotes safety in air transportation, flight, and
of air commerce. 3 This is accomplished, in part, by setting standards for air
operators and repair stations, and by performing certification and oversight of
those organizations. Flight Standards relies on its field offices across
eight regional divisions to issue new certificates and to ensure the continued
operational safety of certificated organizations.

FAA’s Certification Services Oversight Process (CSOP) provides a standard set of
guidance for communication, resource evaluation, and certification workload
determination for new applicants. FAA field offices receive applications,
summarize and input the information into the CSOP database, and perform a
resource evaluation that must be approved by the regional office. The field office
can initiate the certification process for new applicants when FAA managers have
determined that resources are available. Otherwise, the regional office should
determine whether resources are available at an alternate field office or whether
the applicant should be placed on a waiting list.

FAA’S FLIGHT STANDARDS SERVICE FACES A LARGE
BACKLOG OF CERTIFICATION REQUESTS
FAA faces a backlog of Flight Standards certifications both at its Denver FSDO
and on a national level. The backlog has resulted in delays to effective and
efficient certification of new aircraft operators, flight training schools, and repair
stations.

The Denver FSDO Has One of the Longest Waitlists in the Country
The Denver FSDO currently faces a substantial backlog of aircraft operators and
repair stations awaiting certification. For example, the agriculture company cited
in Congressmen Gardner’s letter to us, which first applied for a certification in
April 2011, is currently number 30 of 42 applicants on the Denver FSDO’s
waiting list. Of these 42 waitlisted applicants, 19 are Part 135 commercial air
carriers 4 and 13 are repair stations—both of which can be complex certifications.

The Denver FSDO has not certificated a new air operator since August 2010 or a
repair station since November 2011. The office attributed this stagnancy to
staffing shortages; however, the identified vacancies did not occur until July 2012.
Further, the office has issued only 6 certifications to new applicants in 4 years—


3
 Federal Aviation Reauthorization Act of 1996 ( PL 104–264 Section 401).
4
 Part 135 air carriers operate smaller aircraft that are configured for 30 passengers or less or under 7,500 pounds of
payload; most fly on-demand (i.e., at the request of their customers).
                                                                                                     4


compared to 105 for the other 6 district offices within the Northwest Mountain
Region combined (see figure 1).

Figure 1. Comparison of Certifications by Northwest Mountain
Region FSDOs, Fiscal Years 2010–2013
     50
     45
     40                                                                             Applicants In
     35                                                                             Queue
     30
     25                                                                             New Applicants
     20
     15                                                                             Certifications
     10                                                                             Completed
      5
      0
            Denver Salt Lake Portland Seattle            Helena Spokane     Boise
                     City



Source: OIG analysis of FAA’s certification process data.

FAA Faces a Certification Backlog Nationwide
Given the challenges at the Denver FSDO, we analyzed the data from other FAA
offices and found they face certification backlogs as well. As of October 2013,
there were 1,029 new air operator, flight training schools, and repair station
applicants awaiting FAA certification across the country. 5 This backlog spans all
eight FAA regions (see figure 2).




5
    According to FAA’s Certification Services Oversight Process database.
                                                                                  5


Figure 2. Applicants Awaiting Certification in FAA Regions




Source: OIG analysis of FAA data as of October 2013.

Of those awaiting certification, 138 applicants have been delayed for more than
3 years, with one applicant waiting since August 2006.

CERTIFICATION PROCESS, RESOURCE MANAGEMENT, AND
CHANGING GUIDANCE HAVE DELAYED CERTIFICATIONS
A number of factors have contributed to the certification backlog at the Denver
FSDO, including resource management, the certification process itself, competing
priorities, and constantly changing guidance from headquarters and regional
offices. These factors could also be the cause for the backlog at other FAA district
offices and regions nationwide. As a result of these certification issues, new air
operators and repair stations face barriers to entering the aviation industry.

Resource Management Issues Have Contributed to the Backlog at
Denver FSDO
According to Denver FSDO managers, the office’s stagnant certification record is
a result of staffing shortages. The office has had three vacancies for FAA
inspectors since 2012. However, no new air operator certifications have been
completed since August 2010—almost 2 years prior to the identified shortages.
This indicates that the Denver FSDO may have more longstanding issues with
determining how many inspectors it needs to perform certification work. While the
                                                                                                                          6


number of Denver FSDO inspectors is comparable to other similarly sized offices6
within the Northwest Mountain Region (see figure 3), the Denver office has
processed the least number of certifications since October 2009. The assistant
manager attributed this to a more demanding workload for unplanned activities,
such as reviews of pilot deviations, 7 than other offices face. However, despite
these staffing challenges and complaints from waitlisted applicants, the Denver
FSDO has not approached the Northwest Mountain Regional management for
additional resources. Additionally, FAA guidance gives the Region the authority
to assign resources or redistribute certification activities to other FAA offices.
However, Region Office management has not performed an evaluation of
available resources at local FSDOs and has left it up to each individual FSDO to
manage its own resources and workload.

Figure 3. Denver FSDO and Staffing Compared to Similar Offices
                  Certificates                   Number of                   Certifications Completed
                   Managed                       Inspectors                     FY 2010 – FY 2013
Seattle               220                            26                                  14
Portland              215                            19                                  28
Denver                178                            15                                   6
Source: OIG analysis of FAA data for general aviation inspectors and the number of certificates those
inspectors oversee.


FAA Does Not Effectively Prioritize or Track Certification Projects
Performed by Its FSDOs
FAA uses a first come-first served approach to processing certification requests,
which, according to office managers, could result in significant delays if more
complex certifications are first in the certification queue. For example, a large
Part 135 carrier applicant that requires extensive inspector staff time and effort due
to the size and complexity of the operation could delay all new certifications
behind it.

FAA guidance provides field offices with the option to pass over applicants when
specific resources are not available to perform the certification so that the offices
can continue processing other less-complex applications lower in the queue. While
this flexibility would allow less complicated certifications to move quickly
through the backlog, the process is seldom used. For example, the Assistant
Manager at the Denver FSDO stated he was aware of this alternative, but had
never asked the region for approval to allocate resources to more simple

6
  Compared to Seattle and Portland, based on the number of certificates managed and the number general aviation
inspectors.
7
  Pilot deviations occur when the actions of the pilot results in a violation of a Federal Aviation Regulation, such as
failure to maintain assigned altitude.
                                                                                   7


certifications. According to the Senior Technical Advisor for Flight Standards
Service Field Operations, the Agency intends to update its guidance to better
streamline less-complex operator certifications. However, because this update is
still early in the planning stages, it remains unclear what impact these policy
clarifications will have on future certifications.

FAA also does not have an established process to track new certification
applicants. Currently, when inspectors receive new applications, they enter them
into CSOP—FAA’s certification management system—and categorize them as
either an air organization or a repair station. However, there is no method to
sequence applications or assign tracking numbers within the system. Instead,
inspectors create a separate tracking sheet that organizes each application by the
date it was received. FSDOs maintain these tracking sheets outside of the
database, which limits transparency at the regional and national levels. As a result,
FAA Headquarters and regional office personnel can not readily assess the
workload of individual FSDOs and determine what resources may be needed.

FAA Does Not Effectively Manage Inspector Resources To Initiate
Certifications of Waitlisted Applicants
FAA has not provided an objective method or national guidance for determining if
and when enough inspectors are available to initiate new certifications at offices
with waiting lists. According to FAA guidance, when a FSDO receives new
applications, the office manager should perform an evaluation of available
inspector staff to determine whether the certification process can proceed. If
resources are not available, applicants would be placed on a waiting list. However,
there is no requirement for FAA field or regional offices to later re-evaluate the
resources needed for these certifications or the availability of inspector resources.
Moreover, FAA does not forecast resource availability for future certification
activities. Without such evaluations or forecasts, FAA will remain unaware of the
specific resources needed for completing new certifications and will be unable to
adequately schedule its staffing needs for this process.

Alternatively, FAA guidance allows regional offices to transfer applications to a
different field office with more work capacity. Transferring certification
applications to other offices with available resources could help reduce
certification delays. For example, even though many FSDOs face backlogs, there
is potential for other offices to handle additional work now, or as they complete
certifications in progress. We found that 29 of 85 (34 percent) Flight Standards
field offices have 5 or fewer applicants awaiting certification. Further, 25 offices
currently do not have a waiting list for new certifications. However, according to
our interviews with FAA staff, the Northwest Mountain Region has not been using
the transfer process, in part because they do not have information regarding the
                                                                                                                    8


resources at each location and therefore leave it up to each individual FSDO office
to manage its workload.

Frequently Changing Guidance and Competing Priorities Have
Interrupted the Certification Workflow
Over the last 3 years, changes to guidance from Headquarters and the regional
office on whether to initiate new certifications has resulted in workflow
interruptions and diminished incentive for inspectors to expedite new certification
applicants. In addition to managing workflow interruptions, FAA inspectors are
challenged with ensuring that existing operators continue to operate safely while
also balancing the need to certificate new operators.

While FAA states it has never formally suspended all certification work, there has
been conflicting communications between Headquarters and the field regarding
when to perform and when to halt certification efforts. For example, in March
2011, FAA halted most new certification activity nationwide. In addition, the
Northwest Mountain Region (to which the Denver FSDO reports) stopped new
certifications twice over a 1-year period. Also, in June 2013, FAA stated that
Headquarters must approve any new certification work at field offices. See figure
4 below for a timeline of FAA’s frequently changing communications regarding
certifications.

Figure 4. FAA Communications Regarding New Certifications
                                                                               Northwest
                                          FAA HQ                               Mountain
    FAA HQ                           If resources are                           Region
    Most new                             available,                        If resources are
  certifications                       certifications                          available,
                                         should be
  halted due to                      accomplished in                           waitlisted
     budget                          order of receipt.                       certifications
   uncertainty.                                                              can proceed.
                                      October 24,
 March 15, 2011                          2012                              May 28, 2013




                   July 10, 2012                         April 3, 2013                         June 17, 2013

                     Northwest                             Northwest                               FAA HQ
                     Mountain                              Mountain                           All certifications,
                      Region                                 Region                              new and in
                      No new                                No new                                progress,
                    certifications                        certifications                           require
                   can be started.                       can be started.                       justification to
                                                                                              be sent to FAA
                                                                                                    HQ for
                                                                                                concurrence.

Source: OIG analysis of FAA data.
                                                                                    9


According to FAA representatives at regional and district office levels, these
cessations in certifications were due in part to ongoing budget issues,
sequestration, and the need to ensure the safety of operators they already oversee.

CONCLUSION
FAA’s certification responsibilities are an important component of the Agency’s
mission to ensure safe operations in the NAS and support the growth of the
aviation industry. However, FAA is currently facing greater industry demand and
its current certification and resource management processes cannot keep pace.
This has led to a backlog of entities awaiting certification that will only continue
to grow if FAA does not take immediate steps to address it. FAA is currently
working to revise guidance to streamline the certification process for less complex
applications in the queue. However, the Agency must find better ways to prioritize
and track its certification workload, as well as more effectively manage and
maximize the inspector resources it has to meet its oversight and certification
needs. While ensuring the safety of current operators necessarily remains FAA’s
top priority, excessive or prolonged delays to certifying new operators and repair
stations hinders the industry’s expansion and our nation’s economic growth.

RECOMMENDATIONS
To improve the efficiency and effectiveness of FAA’s Flight Standards
certification process, we recommend that FAA:

1. Clarify and disseminate Agency guidance that allows field offices to establish
   priorities and pass over applicants when specific resources are not available to
   perform the certification.

2. Require the Northwest Mountain Regional Office to evaluate resources across
   its district offices and determine whether certification services can be shifted to
   other offices with greater resource availability and assess the extent to which
   this applies to other offices.

3. Develop a tracking number and sequencing system within CSOP to enhance
   reporting and visibility of certification activities to Flight Standards
   management.

4. Develop a standardized approach for District Offices to continually monitor
   and evaluate whether resources are adequate to initiate new certifications.
                                                                                    10


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on April 7, 2014, and received its formal
response on May 22, 2014, which is included in its entirety as an appendix. FAA
concurred with all four of our recommendations and has taken swift action to
address our concerns at both the regional and field office levels. Based on FAA’s
response, we consider recommendations 1, 3, and 4 resolved but open pending
completion of planned actions. We are requesting additional information for
recommendation 2.

For recommendation 2, FAA described the process regional offices use to reassign
certification activities to other field offices, and stated it recently implemented
new procedures for waitlisted applicants. These procedures incorporate a monthly
review of all field office waitlists and an evaluation of their certification capacity.
According to FAA, this review will facilitate certifications in order to achieve
approximately equal wait times across all field offices. The intent of our
recommendation was to have the Region conduct the monthly review; however,
FAA’s response states that the monthly review will be performed at the field
office level. Therefore, we are concerned FAA still would not have a process for
field offices to alert regional offices of capacity, thereby limiting the benefits of
the new approach. We are requesting that FAA clarify how the Region will
participate in the monthly evaluations to determine whether resources are available
to perform new certifications.

ACTIONS REQUIRED
FAA’s planned actions for recommendations 1, 3, and 4 are responsive, and we
consider these recommendations resolved but open pending completion of the
planned actions. For recommendation 2, we request that FAA provide additional
information as described above. In accordance with Department of Transportation
Order 8000.1C, we request that FAA provide this additional information within 30
days of this report. Until we receive this information, we consider
recommendation 2 open and unresolved.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Tina Nysted, Program Director, at (404) 562-3770.

                                          #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                  11



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from July 2013 through April 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To assess the status of pending certifications at the Denver FSDO, we met with
FAA Flight Standards officials at the Headquarters, regional, and local level that
are directly responsible for the certification of new air operator and repair station
applicants. We visited the Denver and Seattle FSDOs along with the Northwest
Mountain Region Office to interview managers and staff involved in the
certification process. We also reviewed the status of pending certifications
nationwide. This information and analysis was included as part of a hearing before
the House Subcommittee on Aviation held on October 30, 2013. We utilized
FAA’s certification database in conjunction with interviews to determine the
number of applicants awaiting certification.




Exhibit A. Scope and Methodology
                                                           12



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Tina Nysted                             Program Director

Travis Wiley                            Project Manager

Marshall Anderson                       Senior Analyst

Audre Azuolas                           Writer/Editor




Exhibit B. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                        13




                    Federal Aviation
                    Administration

Memorandum
Date:      May 22, 2014
To:        Matthew E. Hampton, Assistant Inspector General for Aviation
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector General
           (OIG) Draft Report: Backlog of Flight Standards Certification Applications


The FAA plays a central role in ensuring that the United States aviation system continues to be
the safest in the world. This responsibility covers almost every facet of aviation, including the
certification of air carriers, aircraft, and airmen; the operation and maintenance of aircraft;
aircraft manufacturing; and the approval of new aircraft design. The Flight Standards Service
(AFS) provides initial certifications and ongoing oversight and surveillance of both existing and
newly certificated entities.

The FAA fully recognizes that its obligation to the American public requires the agency to
undertake certification projects with existing resources. Last year’s budget required AFS to be
especially judicious in evaluating its ability to take on new certification projects, not only
because of the lengthy resource commitment required for the initial certification process, but
because of ongoing higher priority oversight and surveillance activity to validate operators’
ability to manage risk and to achieve safety objectives. These constraints adversely affected
certification projects. The AFS management team is actively working to reduce the backlog and
to find innovative ways to enhance our efficiency and agility in handling both certification and
other core functions. The agency takes the findings of this audit very seriously and plans to have
all updates to the Certification Services Oversight Process (CSOP) completed by December 31,
2014.

To this end, AFS has initiated an expedited review of the Northwest Mountain CSOP Wait-List
Advancement Procedures. The goal of this review is to incorporate applicable elements of the
non-sequential certification advancement process into revised and updated national guidance.
This change will help to reduce the nationwide certification backlog by offering a nationally-
standardized process and criteria by which field offices can certificate an applicant even if that
applicant is not next on the CSOP wait list.

Concurrently, the heavily impacted AFS Northwest Mountain Region (ANM) is taking steps to
determine how certification services can be shifted to other offices with greater resource
availability. ANM is also working with Headquarters management to develop a CSOP tracking


Appendix. Agency Comments
                                                                                                   14


number and sequencing system, as well as a nationally-standardized approach for field offices to
continually monitor and evaluate whether resources are adequate to initiate new certifications.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Clarify and disseminate Agency guidance that allows field offices to
establish priorities and pass over applicants when specific resources are not available to
perform the certification.

FAA Response: Concur. To address this issue in the most heavily impacted region, the
Northwest Mountain Region Flight Standards Division (ANM-200) has just implemented Local
Technical Document, AFS-ANM-200-016, Northwest Mountain Region Certification Services
Oversight Process (CSOP) Wait-List Advancement Procedures. AFS-ANM-200-016 outlines a
process for Northwest Mountain Region field offices to certificate applicants when that office
has resources for the activity, even if the applicant is not next on the CSOP wait list. This
process is intended to address and reduce long wait times for applicants whose certification
requires fewer resources for both initial certification and continuing operational safety oversight.

To address this issue nationally, AFS will review by May 31, 2014, the process documented in
AFS-ANM-200-016, modify as needed, and incorporate applicable provisions into revised
national policy for nationwide use. AFS will complete modifications to national policy and
publish the national process no later than December 31, 2014.

Recommendation 2: Require the Northwest Mountain Regional Office to evaluate resources
across its district offices and determine whether certification services can be shifted to other
offices with greater resource availability and assess the extent to which this applies to other
offices.

FAA Response: Concur. The national CSOP process, AFS-002-900-S1, Certification Services
Oversight Process Standard Operating Procedure (CSOP SOP), outlines a process for review
(Regional Office Responsibilities, paragraph 2.4.3.3). In ANM-200, the Technical Standards
Branch – General Aviation (ANM-230), is responsible for this review. Through the process,
AFS-ANM-200-016, ANM-230 incorporates a monthly review of all ANM’s field office CSOP
wait lists and an evaluation of their certification capacity. The purpose of this additional review
is to facilitate distribution of certifications in order to achieve approximately equal wait times
across ANM field offices. ANM-230 will use AFS-ANM-200-016 to strengthen its practices and
consistently follow the CSOP SOP by June 30, 2014.

To help ensure consistent application of both AFS-002-900-S1 and AFS-ANM-200-016
processes, the regional Safety Analysis and Evaluation Branch, ANM-290, will develop a job aid
to support data collection that documents regional compliance with the two processes. ANM-
290 will also audit compliance with both processes and prepare a report for review and any
needed action by the ANM Flight Standards Division Manager by September 30, 2014.

Recommendation 3: Develop a tracking number and sequencing system within CSOP to
enhance reporting and visibility of certification activities to Flight Standards management.



Appendix. Agency Comments
                                                                                               15


FAA Response: Concur. AFS will revise the CSOP SharePoint site functionality to implement
this recommendation for tracking numbers and a sequencing system. The CSOP SharePoint site
will be revised as described above by December 31, 2014.

Recommendation 4: Develop a standardized approach for District Offices to continually
monitor and evaluate whether resources are adequate to initiate new certifications.

FAA Response: Concur. ANM-200 has proposed that language be added to the national CSOP
SOP. This new language will require office managers to perform a monthly review of their
CSOP wait lists and determine whether new certifications can be accommodated. AFS-ANM-
200-016 also provides additional guidance for field offices to facilitate and monitor non-
sequential advancement of certification applications. To develop a standardized approach, AFS
has established a working group comprised of both headquarters and field subject matter experts
to review and revise national certification policy. As part of this effort, the working group will
review the baseline process documented in AFS-ANM-200-016 and as appropriate, AFS will
adapt and incorporate these concepts and principles into revised national guidance by December
31, 2014.




Appendix. Agency Comments
